WAIVER

Supreme Court, U.S.
FILED

SEP 1 4 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
No.

21-247
Alliance for Good Government

Coalition for Better Government, et al.

(Respondent)

V.

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing instructions: Mail the original signed form to: Supreme Court,
1 Firs - Street, Iii, Washington, D.C. 20543).
Att.n: Clerk's

0

Signature:

'September 14, 2021

Date:

(Type or print) Name !Richard T. Sahuc
Mr.

0 Mrs.

®Ms.

Firm

Intellectual Property Consulting, LLC

Address

400 Poydras Street, Suite 1400

City & State

New Orleans, LA

Phone

504-322-7166

0 Miss

Zip w431,ee•

030

Email rsahuc@iplawconsulting.com

A copy of this form must. be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

CC:

Coalition for Better Government
Darleen Jacobs

—RECEWE

SEP 2 3 2021

Mil-Jai*

Supreme Court of the United States

Coaltion for Better Government, et al.
(Petitioners)
v.

No. 21-247

Alliance for Good Government
(Respondent)

Ln-tk A ryl R j1A6P• SAVunsel for Respondent:
NOTICE IS HEREBY GIVEN pursuant to Rule 12.3 that a petition for a writ of
certiorari in the above-entitled case was filed in the Supreme Court of the United States
on August 18, 2021, and placed on the docket August 20, 2021. Pursuant to Rule 15.3,
the due date for a brief in opposition is Monday, September 20, 2021. If the due date is a
Saturday, Sunday, or federal legal holiday, the brief is due on the next day that is not a
Saturday, Sunday or federal legal holiday.
Beginning November 13, 2017, parties represented by counsel must submit filings
through the Supreme Court's electronic filing system. Paper remains the official form of
filing, and electronic filing is in addition to the existing paper submission requirement.
Attorneys must register for the system in advance, and the registration process may take
several days. Further information about the system can be found at
https://www. suprem ecourt. gov/fil i ngandrule s/electronicfi lin g. a spx
Unless the Solicitor General of the United States represents the respondent, a
waiver form is enclosed and should be sent to the Clerk only in the event you do not
intend to file a response to the petition.
Only counsel of record will receive notification of the Court's action in this case.
Counsel of record must be a member of the Bar of this Court.

Miss Darleen M. Jacobs
Darleen M. Jacobs, APLC.
823 St. Louis Street
New Orleans, LA 70112
504-522-0155

NOTE: This notice is for notification purposes only, and neither the original nor a copy should be filed in the
Supreme Court.

